Account Opening Disclosures

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

St. Mary’s Bank Visa Platinum Business

0.00% Introductory APR for seven cycles
After that, your APR will be 14.20% to 19.20% based on
creditworthiness. This APR will vary with the market based on the Prime Rate

APR for Balance Transfers

14.20% to 19.20% based on creditworthiness.

This APR will vary with

the market based on the Prime Rate
APR for Cash or ATM
Advances
Penalty APR and When it
Applies
Paying Interest

14.20% to 19.20% based on creditworthiness.

This APR will vary with

the market based on the Prime Rate
None

Minimum Interest Charge

Your due date is 25 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month.
We will begin charging interest on Cash or ATM advances and Balance Transfers on
the transaction date.
If you are charged interest, the charge will be no less than $1.00

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees
•

Purchases

None

•

Balance Transfers Fee

Either $10.00 or 4% of the amount of each balance transfer, whichever is greater.

•

Cash or ATM Advance
Fee

Either $10.00 or 4% of the amount of each cash advance, whichever is greater.

• Foreign Transaction Fee
Penalty Fees

1% of the transaction amount in U.S. dollars.

•

Late Payment Fee

Up to $25

•

Over-the-Credit Limit Fee

None

•

Returned Payment Fee

Up to $35

How We Will Calculate Your Balance: We use a method called "Average Daily Balance (including new purchases)."
See your account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
account agreement.

The information stated above is updated regularly, but may have changed since the last update. To obtain information
about changes in the above disclosures, contact us at St. Mary’s Bank, PO Box 84032, Columbus, GA 31908-4032 or
1-866-686-5210. Credit Cards are issued by St. Mary’s Bank. Member NCUA
1/29/16
1

St. Mary’s Bank
®

BUSINESS VISA CREDIT CARD AGREEMENT
®

This Agreement applies to the VISA Credit Card Account established
for the Business by St. Mary’s Bank. Any Card issued under this
Agreement remains our property and must be returned to us or to
anyone we designate, upon request. Retaining, signing or using, or
permitting others to use, the Card or Account is the same as signing this
Agreement, and means the Business agrees to be bound by the terms of
this Agreement.
Definitions. In addition to other terms that may be defined in this
Agreement, the following terms when used in this Agreement have the
following definitions:
• “Account” means the open-end revolving credit account established
pursuant to the Application and this Agreement to which charges are
posted based on use of a Card, information from a Card or any other
means by which the Account may be accessed in the future.
• “Agreement” means this Credit Card Agreement, which includes the
Account Opening Disclosures and other information provided on the
Card Mailer, as well as the Application.
• “APR” means the Annual Percentage Rate corresponding to the
periodic rate described in the “Interest Charges” section below.
• “Application” means the application for credit the Business submitted
to request us to extend credit to the Business under the Account.
• “Authorized Cardholder” means each employee or officer of the
Business to whom a Card is issued and any other person that the
Business or a cardholding employee or officer allows to use a Card
or the Account.
• “Business” shall mean and include each individual and/or entity that
applied for or otherwise agreed to be responsible for the Account.
®
• “Card” means each VISA credit card issued to the Business or, at
the Business’ request, to an Authorized Cardholder by us for use
with the Account.
• “Card Mailer” means the folder sent with each Card.
• “Cash Advance Limit” means that portion of the Credit Limit that is
available to be used for Cash Advances.
• “Credit Limit” means the total dollar amount of credit available to the
Business under the terms of this Agreement.
• “We”, “us” and “our” refer to St. Mary’s Bank 48 Perimeter Road
Manchester, NH 03103.
Business Purpose. The Account is to be used solely for business
purposes. The Business agrees to instruct each Authorized Cardholder
not to use the Account for any personal, family or household purpose.
The Business also agrees that its obligations under this Agreement shall
not be affected or limited if the Account is used for any non-business
purpose.
Authorized Cardholders. We may issue Cards to Authorized
Cardholders at the request of an authorized representative of the
Business. The Cards will be sent to the address of the Business in our
records unless otherwise requested by an authorized representative of
the Business. The Business is solely responsible for safeguarding the
Cards following receipt and for distributing the Cards to the Authorized

2

Cardholders. The Business acknowledges that the Cards are to be used
by Authorized Cardholders only. Unless the Business notifies us
otherwise in writing, the Business authorizes and directs us to issue
renewal or replacement Cards to Authorized Cardholders on or before
the expiration of each Card. The Business acknowledges and agrees
that Cards are not assignable or transferable, by operation of law or
otherwise.
The Account will include a sub-account for each Authorized
Cardholder (each a "Cardholder Account"). The name of the Authorized
Cardholder and Cardholder Account number (the "Cardholder Account
Number") will be imprinted on the Card issued with respect to each
Cardholder Account, along with the Business’ name. Unless the context
requires otherwise, any reference in this Agreement to the Account
includes a reference to any applicable Cardholder Account.
Using The Account. The Account and, except as otherwise limited by
the Business, any Cardholder Account may be used as follows: (1)
“Purchases”: to purchase or lease goods and services from any
merchant who honors the Card; (2) "Cash Advances": to obtain cash or
cash equivalents (a) from us or from any financial institution that honors
the Card, (b) from an automatic teller machine that accepts the Card, (c)
by purchasing items that may be traded right away for cash, including,
but not limited to, money orders, travelers checks, lottery tickets, casino
chips, vouchers redeemable for cash, or racetrack wagers, and (d) by
making tax or other payments; and (3) "Balance Transfers": to request us
to transfer to the Account a balance that the Business owes to another
creditor and, if we approve the Business’ request, we will pay the other
creditor directly. We are not responsible for any person or entity refusing
to accept the Card for Purchases or Cash Advances. We may limit the
number or dollar amount of Purchases, Cash Advances and/or Balance
Transfers that may be made or obtained with a Card or the Account.
Neither we nor our agents will be responsible or have any liability for
refusing to authorize any transaction, even if the Business has credit
available.
Promise to Pay. The Business promises to pay us for all Purchases,
Cash Advances, Balance Transfers and any other charges on the
Account and each Cardholder Account, whether made by the Business,
an Authorized Cardholder or, to the full extent permitted by applicable
law, by anyone else who uses the Account. The Business also agrees to
pay any and all Interest Charges, fees and all other amounts owed under
this Agreement. If more than one individual or entity applied or agreed to
be responsible for the Account, each of you is individually responsible for
all amounts owed under this Agreement. Any authorized representative
of the Business may give us any notice under this Agreement. If
authorized representatives give us different notices or make different
requests, we may choose which one to honor. We will not be liable to the
Business or anyone else because we choose to honor a request or
notice from any authorized representative of the Business.
Illegal Transactions. The Business agrees that neither the Account nor
any Cardholder Account may be used for any transaction that is illegal in
the jurisdiction where the transaction is consummated or in any other
jurisdiction affected by the transaction. The Business agrees that it is the
responsibility of the Business and each Authorized Cardholder to
determine the legality of each transaction in all applicable jurisdictions

3

®

before entering into such transaction. Display of the VISA by any
person accepting the Card does not indicate that the transaction is legal
in all applicable jurisdictions. The Business also agrees that no
Authorized Cardholder will use a Card in connection with any Internet or
on-line gambling transaction, whether or not gambling is legal in any
applicable jurisdiction. We reserve the right to decline any transaction
that we believe is an illegal transaction, an Internet or on-line gambling
transaction or a high-risk transaction, but the Business acknowledges
and agrees that we have no obligation to monitor, to review or to
evaluate the legality of the Business’ Card transactions. To the fullest
extent permitted by law, the Business agrees to pay for any Card
transaction by an Authorized Cardholder, even if that transaction is
determined to be illegal.
Refunds and Adjustments. The Business agrees that, for any refund,
adjustment, or credit allowed by any seller or other person or entity, the
Business will not accept cash, but only a credit to the Account, which will
appear on the monthly billing statement.
Monthly Billing Statements. We will send the Business a billing
statement at the end of each monthly billing cycle. Among other
information, each statement will show all Purchases, Cash Advances,
Balance Transfers, Interest Charges, fees and any other debits or
credits to the Account during that billing cycle, along with the unpaid
balance at the end of that billing cycle (the “New Balance”), the minimum
amount of the next payment (the “Minimum Payment Due”), and when
the next payment is due (the “Payment Due Date”). The Business must
review each billing statement as soon as it receives it, and notify us of
any questions or errors within sixty (60) days of receiving the statement.
If the Business does not notify us at the address provided on the
statement within this time period, the Business waives any rights it may
have to any questioned amount to the fullest extent permitted by law.
The Business’ notice must include the following information: the names
of the Business and any Authorized Cardholder involved in the
questioned transaction; the account number for the Account and any
Card involved in that transaction; the dollar amount of any questioned
transaction or suspected error; the reference number on the statement
for any questioned transaction; and a brief description of any questioned
transaction or suspected error.
Minimum Payment Due. If the New Balance shown on the statement
for any billing cycle is less than $30, the Minimum Payment Due for that
cycle will equal the New Balance. If the New Balance for any billing cycle
equals or exceeds $30, the Minimum Payment Due for that cycle will be:
(1) the greatest of: (A) three percent (3%) of the New Balance, (B) $30,
or (C) the sum of any unpaid Interest Charges, any unpaid fees, and 1%
of the New Balance; plus (2) any unpaid Minimum Payments Due from
earlier billing cycles and any amount of the New Balance that exceeds
the Credit Limit or Cash Advance Limit for the Account. Payments must
be made in U.S. dollars drawn on a U.S. Bank. The Business may pay
more than the Minimum Payment Due at any time. The Business will not
owe us any additional charge for early payment. If the Business pays
more than the Minimum Payment Due in one billing cycle, the Business
still has to pay the full Minimum Payment Due in the next cycles. The
Business cannot increase its available credit by paying more than the
unpaid balance on the Account.

4

Payments on the Account. Each payment required under this
Agreement must be made on or before the Payment Due Date shown on
the monthly billing statement. The Business must pay us in U.S. dollars,
by mailing a check or money order, along with the payment stub from
billing statement, to the address shown on that statement. Do not send
cash. If the Business does not follow these instructions, we might not
credit the payment until the next business day after we get it. All
payments on the Account received by 5:00 p.m. during our normal
business day at the address shown on the billing statement are
considered to have been made on the date received at that address. To
the fullest allowed by law, we may accept payments marked "payment in
full" (or words of similar intent) without losing any of our rights to collect
the full balance due under the Account and this Agreement. We will
apply the Business’ payments to the unpaid balance of the Account in
the order and manner we decide, unless restricted by an applicable law.
Disputed Payments. If the Business disputes any amount we say it
owes under this Agreement, the Business must write to us at St. Mary’s
Bank Credit Card Services, P.O Box 84032, Columbus, Georgia 3190840329. If the Business pays us with a check marked with “payment in
full” or similar words, the Business must send it to this address. Subject
to any restrictions of applicable law: (1) the words “payment in full” or
similar words will have no effect; and (2) we can take disputed payments
without giving up any of our rights.
Payment Holidays. At our option we may permit the Business from time
to time to skip making the Minimum Payment Due for a specified billing
cycle (referred to as a "Payment Holiday"). Even if the Business accepts
such a Payment Holiday, we will continue to assess Interest Charges on
the unpaid balances of the Account. Any payment holiday we permit will
not affect the terms of this Agreement.
Credit Limit; Cash Advance Limit. The Business agrees not to use or
permit others to use the Card or Account if such use would cause either
(i) the balance of the Account to exceed the Credit Limit we set from
time to time or (ii) the balance of the outstanding Cash Advances to
exceed the Cash Advance Limit. The initial Credit Limit and Cash
Advance Limit for the Account are shown on the Card Mailer and will
also be disclosed on each monthly billing statement for the Account. We
may, at our option, extend credit under the Account which exceeds the
Credit Limit or the Cash Advance Limit. If we do, the Business agrees to
immediately pay the excess which we advanced to the Business over
either of the applicable limits. We are not obligated to allow any
Purchase, Cash Advance or Balance Transfer which would cause the
Account balance or Cash Advance Balance to exceed the Credit Limit or
Cash Advance Limit, as applicable, and if we do, we are not obligated to
do so at a later time. We may increase or decrease the Credit Limit
and/or Cash Advance Limit at any time, subject to any restrictions of
applicable law. We may terminate the Business’ ability to obtain
additional credit under this Agreement if the Business exceeds the
Credit Limit or the Cash Advance Limit.
Interest Charges. Each billing cycle, we will charge interest to the
Business on the average daily balance for each type of transaction on
the Account (“Interest Charges”). By type of transaction, we mean

5

Purchases, Cash Advances, Balance Transfers and any transactions
subject to a special offer APR. To compute the Interest Charges owed on
the Account for each billing cycle, we first calculate the average daily
balance for each type of transaction. Next, we multiply the average daily
balance for that type of transaction by the applicable interest rate. After
computing the Interest Charge for each type of transaction, we add
together these Interest Charges to determine the total Interest Charges
on the Account for the billing cycle. If the Business is charged interest for
any billing cycle, the Interest Charge will be no less than $1.
Average Daily Balances Used to Compute Interest. To get the
average daily balance for each type of transaction on the Account: (1) we
calculate a daily balance for each day in the current billing cycle; (2) we
add all the daily balances together; and (3) we divide the sum of the daily
balances by the number of days in the current billing cycle. To calculate
the daily balance for each type of transaction for each day in the current
billing cycle, we take the beginning balance for that type of transaction
on that day, add any new transactions and applicable fees or other
charges, and subtract any applicable payments and credits. The
following fees and charges will be added to the daily balance for
Purchases on the date each is posted to the Account: Annual Fee,
Foreign Transaction Fee, Late Fee, Returned Payment Fee, Expedited
Delivery Fee, Pay-by-Phone Fee, and any amounts permitted under the
“Attorneys Fees and Other Collection Costs” below. Any Cash Advance
Fee will be added to the daily balance for Cash Advances on the date it
is posted to the Account. Any Balance Transfer Fee will be added to the
daily balance for Balance Transfers on the date it is posted to the
Account. If any daily balance is less than zero we treat it as zero.
Interest Rates. We calculate how much interest the Business owes each
billing cycle by applying a monthly periodic rate (an “MPR”) to the
average daily balance for Purchases, Cash Advances, Balance
Transfers and any transactions subject to a special offer APR. We get
each MPR by dividing the APR for that transaction type by 12. The
interest rates that apply to the Account are shown on the Card Mailer
and each billing statement. Except for any introductory or other special
offer APR, each APR is a variable rate equal to the Prime Rate plus any
margin shown on the Card Mailer or in the special offer. The “Prime
Rate” is the U.S. Prime Rate published in The Wall Street Journal on the
last Business Day of the month. An increase or decrease in the Prime
Rate will cause a corresponding increase or decrease in the variable
APRs on the first day of the billing cycle that begins in the month
immediately following the change in the Prime Rate. If the APRs
increase, the amount of interest owed and the Minimum Payment Due
may increase.
Grace Period/Paying Interest. The Payment Due Date is at least 25
days after the close of each billing cycle. We will not charge the Business
any interest on Purchases if the Business pays its entire New Balance by
the Payment Due Date each month. No Interest Charge will be imposed
on new Purchases posted to the Account during a billing cycle if the
outstanding New Balance for the preceding billing cycle had been paid in
full and credited by the "Payment Due Date" for that billing cycle.
However, if (1) the outstanding New Balance for the preceding billing
cycle has been paid in full and credited by the "Payment Due Date" for
that billing cycle, (2) a Purchase is posted to the Account during the

6

current billing cycle, and (3) the New Balance of the current billing cycle
is not paid in full and credited by the "Payment Due Date" for the current
billing cycle, an Interest Charge will accrue on the Purchase from the first
day of the billing cycle which follows the current billing cycle. For any
billing cycle in which the Account has an outstanding New Balance which
was not paid and credited by the "Payment Due Date" for the preceding
billing cycle. We will begin charging interest on all Purchases, Cash
Advances and Balance Transfers on the Transaction Date.
Special Offers. We may make a special offer to the Business. For
example, we may offer a reduced interest rate. Such offers may apply to
all transactions or balances on the Account, or only to some transactions
or balances. We will tell the Business what terms of the special offer
differ from the terms of this Agreement. Except as we tell the Business in
a special offer, the rest of this Agreement will still apply to the Account.
Fees. The Business agrees to pay the following fees, as applicable:
Annual Fee. An annual fee, if applicable, in the amount shown on the
Card Mailer. This fee will be charged to the Account when we issue the
Card, and annually at the end of the month that includes the anniversary
date of the opening of the Account. Payment of the fee is a condition for
maintaining the Account. The fee will be charged regardless of whether
the Business uses the Account, and is not refundable even if the
Account is closed for any reason by either the Business or us.
Transaction Fees:
• Cash or ATM Advance Fee. A fee of $10 or four percent (4%) of the
amount of each Cash Advance (whichever is greater). This fee is in
addition to the Interest Charge which will accrue on the Cash
Advance.
• Balance Transfer Fee. A fee of $10 or four percent (4%) of the
amount of each Balance Transfer (whichever is greater). This fee is
in addition to the Interest Charge which will accrue on the Balance
Transfer. Fee waived for first 12 billing cycles of the introductory
period.
• Foreign Transaction Fee. One percent (1%) of the U.S. dollar
amount of any transaction made (1) in a foreign currency, (2) outside
of the United States, or (3) with a foreign merchant, even if that
transaction is made in U.S. dollars. We may charge this fee for each
transaction (including returns and refunds) at the time the
transaction is posted to the Account.
Penalty Fees:
• Late Payment Fee. A fee if we do not receive at least the Minimum
Payment Due by the Payment Due Date (or the next business day if
the Payment Due Date falls on a Saturday, Sunday or holiday). For
any late payment, this fee will be $25 but never more than the full
amount of the Minimum Payment Due (as shown on the billing
statement) that was due immediately before the fee is assessed,
rounded up to the nearest dollar.
• Returned Payment Fee. A fee if a check or similar instrument or any
debit for payment on the Account is returned unpaid for any reason.
The amount of this fee will be $35 or the full amount of the Minimum
Payment Due that was due immediately before the payment was
returned, rounded up to the nearest dollar, whichever is less.
• Returned Convenience Check Fee. A fee of $25 will be charged to
your account if a Convenience Check written on your account is
declined and returned to the payee.

7

Other Fees:
• Pay-by-Phone Fee. A fee of $10 if the Business requests us to
electronically debit the Business’ deposit or other account for a
payment on the Account, and we honor its request.
• Expedited Delivery Service Fee. Except as provided below, a $30
fee if the Business requests and we agree to arrange for expedited
delivery of any Card to the Business (for example, by an overnight
delivery service).
• Convenience Check Stop Payment Fee. A Fee of $25 per
occurrence if the Business requests us to place a Stop Payment on
Convenience Checks drawn against your Account.
• Document Fee: A Fee of $10 per item if the Business requests us to
make a copy. Examples would be, Statements, Sales Drafts,
Balance Transfers, Payment Checks, Convenience Checks.
Transactions Made in Foreign Currencies. If a transaction is made in
a foreign currency, the company processing that transaction will convert
the transaction into a U.S. dollar amount, and we will charge the
Account for the converted amount. The currency exchange will be done
by a method and at a rate determined by the company that processes
the transaction. The exchange rate in effect on the processing date may
be different from the exchange rate in effect on the transaction date or
the posting date. If the Business makes a return or gets a refund, the
same procedures apply. The amount of any return or refund credit may
be different from the amount of the original transaction because the
exchange rate may change from day to day.
Cardholder Accounts. If the Business at any time wishes either to have
a new Card issued, or to cancel, increase, reduce, or otherwise change
any limit or other requirement on any outstanding Card, an authorized
representative of the Business shall notify us in writing of the requested
action and the requested date of such action, which request shall
constitute a request to amend the Application for the Account. No such
amendment shall be valid until we have approved such request in
writing. Upon the cancellation of any Card or the termination of any
Cardholder Account, the Business promptly will notify the Authorized
Cardholder and will use its best efforts to obtain and destroy the
canceled Card. Upon cancellation of a Card (other than a lost or stolen
Card about which the Bank has received notice) or termination of any
Cardholder Account (including termination resulting from the Authorized
Cardholder’s termination of employment for which the Business provided
notice to us), the Business shall remain liable for all outstanding
balances incurred by the use of the Card prior to our receipt of notice of
such cancellation or termination, including all outstanding balances for
transactions that may be posted to the Cardholder Account by a
merchant after cancellation or termination, as well as all fees or other
charges of any type with respect to that Cardholder Account. Upon our
reduction of or change in any limit or other requirement on any
outstanding Card, the Business promptly shall notify the Authorized
Cardholder. Notwithstanding any such notice, the Business shall remain
liable for all amounts incurred by the use of the Card.
Termination. We may reduce the Credit Limit or terminate the Business’
ability to receive additional credit under this Agreement at any time
without notice, unless restricted by applicable law. The Business may
terminate its ability to receive additional credit under this Agreement by

8

giving us notice of termination and returning to us or destroying all
Cards. Termination by the Business will be effective after we have
received its written notice and had a reasonable opportunity to act on it.
If the Business’ ability to receive additional credit under this Agreement
is terminated, either by the Business or by us, this Agreement is not
terminated. The Business’ obligations and our rights under this
Agreement shall remain effective until all amounts due under this
Agreement have been paid in full. If the Business is not in default at the
time of termination, the Business may pay off any balance under the
terms of this Agreement that apply at that time.
Default. The Business will be in default under this Agreement if any of
the following events occur: (1) the Business fails to make any payment
required under this Agreement when due; (2) the Business fails to
perform or abide by any of its agreements or obligations under this
Agreement or any other loan agreement the Business has with us or with
any other creditor; (3) the Business becomes insolvent (meaning its
liabilities exceed its assets or it is unable to pay its debts as they
become due); (4) any action is taken by or against the Business under
any bankruptcy or insolvency laws; (5) any attachment or garnishment
proceedings are initiated against the Business; (6) any individual who
agreed to be responsible for the Account dies or is declared
incompetent; (7) we, in good faith, believe the prospect of the Business’
payment or performance under this Agreement is impaired; (8) the
Business fails or refuses to provide current financial information to us
when we request it; or (9) if the business is an entity, the Business is
administratively dissolved or is not in good standing in its state of
formation/incorporation or any other state in which the Business is
authorized to do business. Upon the occurrence of any event of default,
all amounts the Business owes under this Agreement will become
immediately due and payable in full. The Business also must also return
to us all Cards issued in connection with the Account. Default shall not
release the Business from any obligation the Business has incurred
under this Agreement. After default, the Business’ obligations and our
rights under this Agreement shall remain effective until all amounts due
under this Agreement have been paid in full.
Attorneys Fees and Other Collection Costs. The Business agrees to
pay the costs we incur if it is in default and we hire an attorney who is
not our salaried employee to collect amounts owed under this
Agreement. We will not charge the Business for our collection costs if an
applicable law says we may not. Any amounts the Business owes for
these collection costs may be added to the outstanding balance of the
Account, and interest may be charged on these costs at the APR
applicable to Purchases.
Changing this Agreement. We may change this Agreement unless
restricted by applicable law. We will tell the Business when any change
will be effective and how it will apply to the Account. The Business may
not change this Agreement unless we agree in writing to the change.
Governing Law; Severability. This Agreement and the Account will be
governed by (1) federal law, and (2) to the extent not preempted by
federal law, the laws of the state of New Hampshire, without regard to its
conflicts of law provisions. We accepted this Agreement in New
Hampshire. If any provision of this Agreement conflicts with the law, the

9

Business agrees the provision will be viewed as if it was amended to
comply with the law. If that is not possible, then only the provision that
conflicts with the law will be deleted. The remaining provisions of this
Agreement will remain effective.
Credit Reports. The Business agrees that we may obtain credit reports
from one or more credit reporting agencies or others in connection with
opening or maintaining the Account, determining the Credit Limit and
Cash Advance Limit, or making any extension of credit to the Business
under the Account. We may also ask the Business for additional
information in connection with the Account and request credit reports to
verify its current credit standing. The Business agrees that we may
release information to others, such as credit reporting agencies,
regarding the status and history of the Account. However, we are not
obligated to release any such information unless required by law.
Notices. Any notices given under this Agreement or relating to the
Account will be effective only if given in writing to us at St. Mary’s Bank
Credit Card Services, P.O. Box 84032, Columbus, Georgia 31908-4032,
and to the Business at its last address shown on our records. The
Business agrees to notify us immediately if its address changes from that
shown on the application submitted in connection with opening the
Account.
Liability for Unauthorized Use. The Business agrees to notify us
immediately if the Business knows or suspects that any Card is lost,
stolen, or the Account is otherwise subject to unauthorized use. The use
of a Card by an Authorized Cardholder at any time, even if the
Authorized Cardholder no longer is employed or associated with the
Business, shall not constitute unauthorized use, subject to applicable law
and section above entitled “Cardholder Accounts.” The Business may be
liable for unauthorized use of any Card and/or the Account, as well as
any fraud involving the use of a Card and/or the Account.
If nine or fewer Cards are issued to the Business’ employees, then:
(a) the Business’ liability for unauthorized use shall not exceed the lesser
of $50 or the amount of money, property, labor or services obtained by
the unauthorized use before the Bank is notified of that use; and (b) the
Business will not be liable for unauthorized use that occurs after it
notifies the Bank, either orally or in writing, of the loss, theft or
unauthorized use, at the address provided on the billing statements.
However, if ten (10) or more Cards are issued to the Business’
employees, the Business shall be liable for all unauthorized use. The
Business agrees that any liability the Authorized Cardholder separately
may have to the Business for the unauthorized use of the Card shall be
the lesser of $50 or the amount obtained by the unauthorized use.

10

